No. 20-443
IN THE SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
BRIEF FOR THE UNITED STATES, via email and by first-class mail, postage prepaid, this 14th day of
June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document 12,993 words, excluding the
partsof the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of
perjury that the foregoing is true and correct. Executed on June 14, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218

June 14, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management Specialist, Office
of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2218. Thank you for your
consideration of this request.

20-0443
USA
DZHOKHAR A. TSARNAEV

CLIFFORD GARDNER
LAW OFFICES OF CLIFF GARDNER
1448 SAN PABLO AVE.
BERKELEY, CA 94702
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVE., NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1100
GINGER.ANDERS@MTO.COM
JUDY CLARKE
CLARKE, RICE APC
1010 2ND AVE.
SUITE 1800
SAN DIEGO, CA 92101
JOHN REMINGTON GRAHAM
180 HAUT DE LA PAROISSE
ST-AGAPIT, QUÉBEC G0S 1Z0 CANADA,
418-888-5049
JACK.GRAHAM@GLOBETROTTER.NET
DANIEL HABIB
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
DANIEL_HABIB@FD.ORG

WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
GAIL K. JOHNSON
JOHNSON & KLEIN PLLC
1470 WALNUT STREET
STE. 101
BOULDER , CO 80302
303-444-1885
DAVID PATTON
DEIRDRE D. VON DORNUM
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
DEIRDRE VON DORNUM
FEDERAL DEFENDERS OFFICE
1 PIERREPONT PLAZA
16TH FLR.
BROOKLYN , NY 11201
718-330-1210
DEIRDRE_VONDORNUM@FD.ORG

